No. 21-_____________
SUPREME COURT OF THE UNITED STATES
Deshaun Tisdale,
Petitioner,
vs.
United States of America,
Respondent
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Sixth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Rules of this Court, the Petitioner, Deshaun
Tisdale, asks leave to file his Writ of Certiorari without prepayment of costs, and
to proceed in forma pauperis.
Pursuant to 18 USC §3006A (the Criminal Justice Act), the Petitioner has
previously been appointed counsel both by the District Court, and this appointment
continued through the Circuit Court. Petitioner’s counsel is the CJA appointed
trial counsel. Petitioner is incarcerated in the Federal Bureau of Prisons and
remains indigent.

Respectfully submitted,

Dated: February 16, 2021

/s/James W. Amberg______
AMBERG & AMBERG, PLLC
James W. Amberg P68564
CJA Attorneys for the Petitioner
32121 Woodward Ave, Ste PH
Royal Oak, MI 48073
248.681.6255
248.681.0115 (fax)

